August 14, 2008

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Scheduled
         Maintenance Service in the Southwest Area
         (Report Number DR-AR-08-006)

This report presents the results of our self-initiated audit, Vehicle Maintenance
Facilities (VMF) – Scheduled Maintenance Service in the Southwest Area
(Project Number 06XG031DR000). The overall objectives were to assess
whether the Southwest Area accomplished all required scheduled maintenance
and whether they integrated both VMFs and local commercial resources for
optimum efficiency. Click here to go to Appendix A for additional information
about this audit.

Conclusion

The Southwest Area did not complete scheduled preventive maintenance (SPM)1
on all vehicles and did not always integrate both VMF and local commercial
vendor resources for optimum use of available resources. As a result, the U.S.
Postal Service’s vulnerability to vehicle breakdowns and accidents could
increase. In addition, better optimizing its resources could save the Southwest
Area an estimated $34 million over 10 years.

Scheduled Maintenance Performance

VMF units and commercial vendors completed an average of 79 percent of the
SPMs, leaving the remaining 21 percent incomplete.2 Four units completed all of
the SPMs, while the other six completed between 58 percent and 91 percent of
the required SPMs.

Management stated that a shortage of assigned maintenance technicians
contributed to these conditions. While some locations required additional staff,
our analysis did not support an overall need for additional maintenance
technicians. We believe several additional issues caused these conditions.

1
  An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the
vehicle or meet safety and reliability standards. See Appendix H for other terms used in this report.
2
  In fiscal year (FY) 2007, approximately 27,604 SPMs were required in the 10 units we reviewed in the
Southwest Area.
Vehicle Maintenance Facilities – Scheduled Maintenance                                     DR-AR-08-006
 Service in the Southwest Area



    •   An inadequate process for VMF units to manage available maintenance
        and repair resources.

    •   The practices of changing vehicle status from “maintenance not
        performed” (also called “maintenance in arrears”) to “maintenance
        performed” by performing maintenance for only 1/10 of 1 hour (6 minutes),
        or adjusting the SPM schedule.3

    •   Vehicle Post Offices (VPO) were often reluctant to release a vehicle for an
        SPM because the VMF could not provide them with a reserve vehicle.4

    •   District and area officials did not conduct sufficient oversight to ensure
        completion of all SPMs.

Without completing all required scheduled maintenance and repairs, the Postal
Service’s vulnerability to vehicle breakdowns could increase, creating mail delays
and service problems. Further, the number of vehicle accidents could increase,
which would raise costs and affect the well-being of employees and the public.
Since the Postal Service does not plan to begin replacing its current fleet of Long
Life Vehicles (vehicles that are more than 20 years old) until 2018, we believe it
is critical that these vehicles receive SPMs in a timely manner. Click here to go
to Appendix B for additional information about this topic.

We recommend the Vice President, Southwest Area, direct district managers to:

1. Assess vehicle maintenance technician positions at individual vehicle
   maintenance facilities to ensure sufficient staff is available for maintenance
   service.

2. Monitor and track key maintenance activities to ensure timely completion of
   all required scheduled maintenance and repairs.

3. Require vehicle maintenance facility officials to immediately conduct all
   maintenance in arrears and properly record vehicle status if maintenance was
   not conducted.

4. Discontinue the practice of performing maintenance for 1/10 of 1 hour and
   adjusting the vehicle maintenance schedule to appear to eliminate situations
   where maintenance was not performed.

5. Assess the reserve vehicle requirements of individual vehicle maintenance
   facilities and allocate or reallocate resources, as necessary.

3
  Performing maintenance for 6 minutes and adjusting the SPM schedule are practices used to avoid
reporting vehicles that did not have all required SPMs accomplished at the end of the fiscal year.
4
  Reserve vehicles are used to replace vehicles until SPM is completed.


                                                    2
Vehicle Maintenance Facilities – Scheduled Maintenance                                       DR-AR-08-006
 Service in the Southwest Area



6. Monitor and review vehicle maintenance facilities’ maintenance operations
   and performance, according to guidance in the Model Vehicle Maintenance
   Facility Performance Review.

Optimum Use of Resources

The Southwest Area did not always optimize its resources to ensure that
maintenance and repair funds were expended in the most efficient and
cost-effective manner. Specifically, maintenance officials often used local
commercial vendors (LCV) for vehicle maintenance and repairs when using VMF
resources would have been more efficient and economical. Likewise, VMF
resources were often used when LCVs would have been more efficient and
economical. Additionally, VMF officials used maintenance employees to shuttle
vehicles between facilities for maintenance and repairs when more economical
means existed.

The following factors contributed to these conditions. Although VMF units had a
vehicle maintenance plan, it did not include provisions for all required SPM and
repairs for all vehicles. Specifically, the vehicle maintenance plan did not:

    •    Consider the optimal combination of VMF resources and LCVs for
         performing scheduled maintenance and repairs.

    •    Include an evaluation of the cost-effectiveness of using LCVs instead of
         VMF resources to shuttle vehicles between facilities for maintenance and
         repairs.

In addition, area officials’ oversight was not effective in managing vehicle
maintenance programs because they did not have sufficient performance data.
We also found the vehicle maintenance organizational structure was not
conducive to effective program management.5

As a result, the Southwest Area expended more resources than necessary to
complete vehicle maintenance and repairs. By optimizing its resources, the
Southwest Area can better manage maintenance technician requirements and
reduce operating costs by about $3.4 million annually, or approximately
$34,522,159 projected over 10 years. Click here to go to Appendix C for
additional information.




5
  This issue requires action by Postal Service Headquarters and will be addressed in the national capping
report.


                                                     3
Vehicle Maintenance Facilities – Scheduled Maintenance                   DR-AR-08-006
 Service in the Southwest Area


We recommend the Vice President, Southwest Area:

7. Direct district managers to work with vehicle maintenance facility officials to
   modify the annual vehicle maintenance plan to provide for all scheduled
   vehicle maintenance to better manage and improve efficiency. The plan
   should:

                •   Make optimal use of both vehicle maintenance facilities and
                    local commercial resources for repairing and maintaining
                    vehicles based on the vehicles’ geographical location.

                •   Make optimal use of the Postal Service’s national vehicle shuttle
                    agreement or other local commercial shuttle services, when
                    cost-effective, for transporting vehicles to and from maintenance
                    facilities.

8. Require the Area Vehicle Maintenance Program Analyst to modify the existing
   vehicle maintenance program to provide the necessary data that would help
   ensure sufficient oversight of the scheduled maintenance and repair program
   at vehicle maintenance facilities, according to Handbook PO-701, Fleet
   Management.

Management’s Comments

Management agreed with our findings and recommendations. Management
initially expressed concerns about the accuracy of the monetary impact we
identified, which was based on 2.5 hours as the minimum requirement for a full
SPM. However, after subsequent discussion, management stated they agreed,
in principle, with the potential monetary impact. Southwest Area management
also issued district managers a letter of instruction with a 30-day timeframe to
provide an action plan and a date when they will address each of the
requirements in the action plan. We have included management’s comments, in
their entirety, Click here to go to Appendix I and here for Appendix J.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers
management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the
report.




                                               4
Vehicle Maintenance Facilities – Scheduled Maintenance                 DR-AR-08-006
 Service in the Southwest Area


We appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Rita Oliver, Director,
Delivery, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Jordan M. Small
    Wayne W. Corey
    Matthew B. Lopez
    Jeffery A. (Jeff) Taylor
    Linda Welch
    Victor Benavides
    Kelvin Williams
    Steve Moreland
    Julie A. Gosdin
    Manny Arguello
    Katherine S. Banks




                                               5
Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-006
 Service in the Southwest Area


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has invested more than $3 billion in vehicle assets for the
purpose of transporting and delivering the mail. The vehicle inventory consists of
219,522 delivery, transport, and administrative vehicles, of which delivery and
collection vehicles (see the examples in Figure 1) account for 195,211 or about
89 percent of the total fleet. The Postal Service acquired these vehicles between
1987 and 1994 and planned to maintain them for 24 years. About 7,700 of these
vehicles purchased in 1987 are approaching the end of their useful life.
However, the Postal Service recently stated that capital constraints now dictate
that many of these vehicles must stay in service until 2018 — 7 years more than
the planned lifespan.

                                      Figure 1.
                Delivery and Collection Vehicles in VMFs for SPM




                 Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these
assets in a technically reliable, safe, clean, and neat condition for efficient mail
transportation. Vehicle maintenance includes selecting and training maintenance
technicians; providing garages, tools, and equipment; performing repairs; and
monitoring and maintaining preventive maintenance standards. The geographic
location of VMFs and auxiliary VMFs varies in each area as needed to support
vehicle maintenance and reduce transportation costs. Auxiliary VMFs were
established for situations where vehicle maintenance requirements exceed VMF
resources or when shuttle time or geographical distances warrant the use of an
auxiliary VMF.

Area officials are responsible for validating staffing requirements for
vehicle-related positions and ensuring an adequate scheduled maintenance
program. Vehicle maintenance managers have overall responsibility for
oversight of all maintenance and repair services performed at VMF units, as well
as any work contracted to commercial vendors. Although the VMF manager has
overall responsibility for vehicle maintenance, vehicles are usually assigned to
VPO. VPOs can be post offices, branches, stations, associated offices, or other


                                               6
    Vehicle Maintenance Facilities – Scheduled Maintenance                            DR-AR-08-006
     Service in the Southwest Area


    delivery and support facilities. Post office officials at VPOs can also contract with
    LCVs for maintenance and repair services, but they are required to document the
    repairs and obtain the VMF manager’s approval for repairs and services costing
    more than $250.

    The Postal Service developed Handbook PO-701, Fleet Management, to assist
    operating personnel in maintaining the vehicle fleet in the most economical
    manner possible. The handbook requires a maintenance plan that provides for
    regular examination and service of Postal Service-owned vehicles. VMF
    managers must prepare a vehicle maintenance plan designating where and
    when each vehicle will receive scheduled maintenance. The handbook also
    emphasizes that preventive or scheduled maintenance is preferable to reactive
    or unscheduled maintenance. (Click here to go to Appendix F, “Scheduled
    Maintenance Process,” for a flowchart.)

    The Postal Service also established a Model Vehicle Maintenance Facility
    Performance Review program. The review program is an integral part of VMF
    operations, and is a key tool for determining the efficiency of a unit at a given
    time and identifying areas that need corrective action. Districts must ensure that
    self-reviews are performed quarterly in all VMFs. A VMF must achieve a score of
    85 or more to be certified. The area must certify or recertify each unit at least
    every 3 years.

    The Postal Service uses the Vehicle Management Accounting System (VMAS) to
    code and track costs. VMAS is a computer-based support system designed to
    collect, process, store, present, and communicate vehicle maintenance data.
    The table below shows VMF expenses, including commercial vendors’ expenses,
    for FYs 2006 and 2007.

           Table 1. Maintenance Expenditures for FYs 2006 and 2007 by Area

                                        VMF and Commercial Expenditures
                                 Commercial                   Commercial
    Postal           VMF           Vendor         Total         Vendor         VMF            Total
 Service Area     Expenses in    Expenses in   Expenses in    Expenses in   Expenses in    Expenses in
 of Operation       FY 2006        FY 2006       FY 2006        FY 2007       FY 2007        FY 2007
 Southeast         $50,027,167   $11,107,056   $61,134,223    $13,867,484   $52,648,111    $66,515,595
 Great Lakes        44,199,932    14,746,580    58,946,512     15,152,866    46,536,525     61,689,391
 Eastern            51,149,527    13,219,956    64,369,483     12,213,149    45,085,152     57,298,301
 Western            37,111,558     8,664,149    45,775,707     10,382,055    45,808,493     56,190,548
 Pacific            44,995,543     7,309,597    52,305,140      9,105,547    42,819,217     51,924,764
 Northeast          36,350,523    10,547,210    46,897,733     10,821,346    37,860,317     48,681,663
 New York
                    34,895,166    11,496,123     46,391,289    12,433,942    36,814,803     49,248,745
 Metro
 Southwest          35,819,600     5,934,289     41,753,889     7,194,386    36,503,347     43,697,733
 Capital Metro      22,846,137     6,045,786     28,891,923     7,643,667    32,808,458     40,452,125
 Total            $357,395,153   $89,070,746   $446,465,899   $98,814,442   $376,884,423   $475,698,865
Source: Postal Service Category Management Center



                                                    7
Vehicle Maintenance Facilities – Scheduled Maintenance                                      DR-AR-08-006
 Service in the Southwest Area




OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess whether the Southwest Area
accomplished all required scheduled maintenance and whether they integrated
both VMFs and local commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle
service files from the 10 VMFs in the Southwest Area. We documented the
scheduled maintenance and number of SPMs required and whether they were
conducted in a timely manner, and reviewed work order files to document
whether SPMs performed were considered actual SPMs, based on the time
required for maintenance. We reviewed the Web-Enabled Enterprise Information
System (WebEIS) to analyze vehicles in “maintenance in arrears” status, and
compared the number of SPMs completed to actual maintenance records. We
also obtained and reviewed Web-based Complement Information System
(WebCOINS) data on the complement of vehicle maintenance technicians.

We obtained a random sample of 10 of the Southwest Area’s auxiliary VMFs
from all districts except the Louisiana District6 (Click here to go to Appendix E),
and reviewed VMAS data for scheduled maintenance services for all of FY 2006
and updated our results with FY 2007 data. We identified the number of
Preventive Maintenance Inspection (PMIs)7 to be performed at each auxiliary
VMF, the VPOs where the vehicles were located, and the distance from the VMF,
and also documented the number of vehicle maintenance technicians assigned
to each VMF.

We identified each VMF’s expenditures and LCVs’ expenditures for scheduled
maintenance. In discussions with VMF managers and review of maintenance
records, we documented the number of SPMs and SPM inspections required for
each location on a yearly basis. Using the VMAS vehicle work order history, we
analyzed the average time to perform an SPM at the top three performing units in
our sample. We also identified a best practice unit and developed a matrix of key
performance characteristics to compare with performance at other VMFs.

We developed an optimization model that used the above operational data to
establish a baseline, standards, key characteristics, shuttle usage and cost.
Using this data, along with other assumptions and conclusions, we established
an optimum operating efficiency for each VMF. Based on the above analyses,
assumptions, and constraints, we estimated that the Southwest Area could
increase overall VMF efficiency, and we projected the cost savings for the
Southwest Area’s universe of 15 VMFs. Click here to go to Appendix D,

6
  The Louisiana District was excluded from our sample because area officials stated the district was not
stable after Hurricane Katrina.
7
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical
and safety systems are functioning properly.


                                                     8
   Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-006
    Service in the Southwest Area


   “Calculation of Cost Savings,” for the model and assumptions we used to
   compute monetary benefits.

   We conducted this performance audit from September 2006 through August
   2008 in accordance with generally accepted government auditing standards and
   included tests of internal controls that were considered necessary under the
   circumstances. Those standards require that we plan and perform the audit to
   obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based on our audit objectives. We believe the evidence
   obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives. We relied on data from VMAS and WebEIS. We did not
   audit these systems, but performed a limited review of data integrity to support
   our reliance on the data. We discussed our observations and conclusions with
   management officials on June 9, 2008, and included their comments where
   appropriate.

   PRIOR AUDIT COVERAGE

   As shown in the table below, the OIG issued two reports related to our objective.

                                  Report              Final Report
       Report Title               Number                  Date        Monetary Impact

Maintenance and Repair          DR-MA-07-        September 21, 2007 $1,571,517
Payments to Commercial          005
Vendors Using Postal
Service Form 8230,
Authorization for Payment
Management of Delivery          DR-AR-06-        June 14, 2006       $22,796,487
Vehicle Utilization             005

   The 2007 audit concluded that using the Postal Service (PS) Form 8230,
   Authorization for Payment, process to pay commercial vendors for maintenance
   and repair services was not cost-effective and did not include controls to
   reconcile payments and ensure repair costs were reasonable. The situation
   existed primarily because management officials did not always realize the cost
   and time impact of using PS Form 8230, and therefore, did not monitor its use.
   As a result, the Postal Service will spend at least $1,269,718 more than
   necessary; not have sufficient assurance that vehicles were appropriately
   repaired; and not receive revenues of more than $301,799 from Voyager Card
   rebates. We recommended district management discontinue the use of the PS
   Form 8230 to pay commercial vendors for maintenance and repair, with some
   exceptions. Management agreed with our findings, recommendations, and
   monetary impact.




                                                  9
Vehicle Maintenance Facilities – Scheduled Maintenance                DR-AR-08-006
 Service in the Southwest Area


The 2006 audit concluded that Postal Service officials made significant strides in
reducing costs associated with delivery vehicle expenditures over the previous 3
years. However, delivery management officials could further improve the use of
vehicles that support delivery operations. Postal Service officials maintained
excess and underused delivery vehicles, and they leased delivery vehicles from
employees and commercial vendors when Postal Service-owned vehicles were
available. Additionally, delivery officials did not monitor the reasonableness of
payments or the need for contracts with employees for use of their personal
vehicles. These conditions existed primarily due to management not consistently
following guidance and not having visibility and control of excess Postal Service-
owned delivery vehicles within their areas. Additional controls over payments to
employees could also reduce the potential for mismanagement or uneconomical
payments. Management agreed with our findings, recommendations, and
monetary impact.




                                               10
Vehicle Maintenance Facilities – Scheduled Maintenance                                       DR-AR-08-006
 Service in the Southwest Area


          APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The vehicle maintenance process did not consistently ensure that all vehicles
receive required and timely SPM. Although four of the 10 VMF units completed
all of the required SPMs, the other six completed between 58 percent and
91 percent of the required SPMs. (See Table 2.)

          Table 2. Scheduled Preventive Maintenance Performed in FY 2007

                                     Required                             Percentage
                    VMF Location     in FY 2007     Performed             Performed
                    Albuquerque             2,352         1,991                    85
                    Austin                  1,900         1,900                   100
                    Corpus Christi          1,502         1,502                   100
                    El Paso                   918           835                    91
                    Houston                 9,688         5,620                    58
                    Little Rock             2,270         1,624                    72
                    Oklahoma City           2,813         2,376                    85
                    San Antonio             3,709         3,709                   100
                    Tulsa                   1,684         1,385                    82
                    Waco                      768           768                   100
                    Total/Average          27,604        21,710                    79
                  Source: VMAS and OIG optimization model

This condition was caused by several factors. Postal Service VMF management
told us there was insufficient staff to perform all the required SPMs, although our
analysis showed that sufficient maintenance staff was generally available. This
difference in staffing requirements occurred, in part, because management did
not consider that LCVs should service more than 1,700 of the 12,000 assigned
vehicles. In addition, the Postal Service does not have a formal policy for staffing
VMF maintenance technician positions, resulting in some VMFs using the “rule of
thumb” ratio or the SPM-per-technician ratio to determine staffing requirements.
The “rule of thumb” method showed that a shortage existed; however, the SPM-
per technician ratio and the OIG’s model did not support the need for additional
staff.8 (See Appendix G.)

Furthermore, several other factors contributed to vehicles not receiving proper
maintenance.

    o “Maintenance in Arrears” and Schedule Adjustment. The Southwest Area
      VMFs sometimes changed a vehicle’s status from “maintenance not
      performed” (also called “maintenance in arrears”)9 to “maintenance

8
  The “rule of thumb” ratio showed a need for 12 additional positions, while the SPM-per-technician scenario
showed an excess of five positions.
9
  The practice of performing maintenance for 6 minutes and adjusting the SPM schedule is used to avoid
reporting vehicles that did not have all required SPMs accomplished at the end of the fiscal year, which is
known as maintenance in arrears.


                                                     11
         Vehicle Maintenance Facilities – Scheduled Maintenance                                          DR-AR-08-006
          Service in the Southwest Area


                  performed.” For example, in September 2007, documentation showed
                  that 2,862 vehicles had maintenance in arrears, but only 2,123 vehicles
                  were reported in that status as of September 30, 2007.10 Thus, 835
                  vehicles were removed from the list by performing maintenance for 1/10 of
                  1 hour or adjusting the maintenance schedule.11 Consequently, these
                  vehicles did not receive proper scheduled maintenance.

              o Maintenance Reserve Vehicles. SPMs were not performed because of an
                insufficient number of reserve vehicles.12 VPOs were often reluctant to
                release a vehicle for SPM because the VMF could not provide them with a
                substitute or reserve vehicle. The 10 VMF units in our sample had
                396 reserve vehicles assigned.13 The guidance authorizes a 3 percent
                reserve for vehicles assigned to city delivery routes and a 4 percent
                reserve for rural routes. Our analysis showed that four of the 10 VMFs
                had shortages, one had the right number, and the other five had overages.
                Although the analysis did not identify an overall overage or shortage of
                reserve vehicles, it highlighted the need for better allocation of vehicles.
                For example, San Antonio had 11 excess reserve vehicles, while Houston
                had a shortage of 24 reserve vehicles. (See Table 3.)

                              Table 3. Estimated Reserve Vehicles Available

                                                                    Estimated   Estimated
                       Number of    Percentage         Reserve     Rural Route City Route    Estimated    Overage
                      Vehicles per of Reserves         Vehicles     Reserves    Reserves      Reserve       or
  VMF Location           VMF         Vehicles          Assigned       (4%)        (3%)      Requirements Shortage
Albuquerque                   1,105         4.00                44           13          23            36        8
Austin                           883            3.30             29             11              19               29          0
Corpus Christi                   707            3.60             14               8             15               23         -9
El Paso                          395            2.90             11               5              8               13         -2
Houston                        4,307            2.90            118             52              90              142        -24
Little Rock                      743            3.20             32               9             16               25          7
Oklahoma City                  1,311            3.70             46             16              28               43          3
San Antonio                    1,356            4.20             56             16              28               45         11
Tulsa                            853            4.30             35             10              18               28          7
Waco                             351            3.20             11               4              7               12         -1
Totals                        12,011            3.53            396            144            252               396          0
Source: VMAS and VMF managers




         10
            The “vehicles in arrears” status is a performance measure for VMFs.
         11
            Adjusting the SPM schedule will remove all vehicles from the list of vehicles in arrears. This issue will be
         addressed in a national capping report to Postal Service Headquarters.
         12
            VMFs provide reserve vehicles to VPOs as a replacement while an assigned vehicle is undergoing
         scheduled maintenance.
         13
            The OIG previously reported on maintenance reserve vehicles in Management of Delivery Vehicle
         Utilization (Report Number DR-AR-06-005, dated June14, 2006).


                                                               12
Vehicle Maintenance Facilities – Scheduled Maintenance                            DR-AR-08-006
 Service in the Southwest Area


     o Review and Monitoring of Maintenance Performance. Except for one
       location,14 area and district officials did not conduct Model VMF
       Performance Reviews at VMFs, as required by Handbook PO-701.
       Additionally, because the process was insufficient, VMF managers did not
       consistently review the maintenance status of vehicles assigned to VPOs,
       as required by Handbook PO-701. These reviews would have helped to
       ensure vehicles received the proper maintenance.

Without completing all required scheduled maintenance and repairs, the Postal
Service’s vulnerability to vehicle breakdowns may increase, creating mail delays
and service problems. Further, the number of vehicle accidents could increase,
which would raise costs and affect the well-being of employees and the public.
Since the Postal Service does not plan to begin replacing its current fleet of Long
Life Vehicles (vehicles that are more than 20 years old) until 2018, we believe it
is critical that these vehicles receive the required maintenance.




14
  Management conducted a Model VMF Performance Review at the Oklahoma City VMF because of
concerns about mismanagement by the VMF manager.


                                               13
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-006
 Service in the Southwest Area


                      APPENDIX C: OPTIMUM USE OF RESOURCES

The Southwest Area did not always optimize its resources to ensure that
maintenance and repair funds were expended in the most efficient and
cost-effective manner. Specifically, maintenance officials often used LCVs for
vehicle maintenance and repairs when using VMF resources would have been
more efficient and economical. Likewise, VMF resources were often used when
LCVs would have been more efficient and economical. Additionally, VMF
officials used maintenance employees to shuttle vehicles from the VPO to the
VMF when more economical means existed.

Several factors contributed to these conditions.

      o Optimum Use of VMF and Commercial Resources. The vehicle
        maintenance plan did not consider an optimum combination of both VMF
        and commercial resources.15 Generally, it is more cost-effective16 for the
        VMF to perform SPMs on vehicles within 50 miles of the VPO. However,
        a local commercial vendor should perform SPMs on vehicles when the
        VPO is more than 50 miles from the nearest VMF. We determined that
        1,974 SPMs should have been performed at the opposite site — either the
        VMF or the commercial facility. (See Table 4.)

                   Table 4. VMF and Local Commercial Vendor Resources

                                                                   SPMs Performed            Total
                        SPMs Performed by                           Inefficiently by      Inefficiently
                                   Local          Total SPMs                  Local        Performed
      VMF Location       VMF      Vendors         Performed        VMF       Vendors         SPMs
     Albuquerque          1,109           723             1,832         1          133             134
     Austin               1,903           105             2,008         0           46              46
     Corpus Christi       1,316           269             1,585       334           44             378
     El Paso                835              0              835         0             0              0
     Houston              5,249           145             5,394         0          146             146
     Little Rock          1,315           239             1,554        50           57             107
     Oklahoma City        1,625           751             2,376        11          573             584
     San Antonio          3,448           443             3,891        25           73              98
     Tulsa                  669           689             1,358        15          465             480
     Waco                   782              1              783         0             1              1
     Total               18,251         3,365            21,616       436        1,538           1,974
 Source: VMAS data and OIG optimization model.




15
   The Postal Service VMAS system does not track the number of SPMs accomplished. The OIG’s
efficiency and optimization model estimated the number completed by analyzing all work orders assigned to
xxxx xx (scheduled maintenance), and with some adjustment considered all work over 2.5 hours as an SPM.
16
   Cost-effectiveness is based on the overhead costs to transport vehicles between the VMF and the VPO
using a vehicle maintenance technician or other VMF personnel to shuttle the vehicle.


                                                   14
                  Vehicle Maintenance Facilities – Scheduled Maintenance                                        DR-AR-08-006
                   Service in the Southwest Area


                        o Vehicle Shuttling. In most cases, we found that the Postal Service’s
                          national vehicle shuttle agreement or local commercial shuttling services
                          were more cost-effective than using VMF maintenance technicians. The
                          Southwest Area used more than 16,800 workhours for vehicle
                          maintenance technicians17 to shuttle vehicles rather than perform
                          maintenance. The shuttle hours related to SPM were equivalent to 10
                          vehicle maintenance technician positions at a cost of $725,000.18 (See
                          Table 5.)

                            Table 5. Vehicle Maintenance Technician Hours Used for Shuttling

                                        Estimated
                                       Maintenance
                        Number of         Hours                           Percentage                                            Cost of
                         Vehicle        Available           Total          of Direct      Shuttle Hours      Equivalent      Shuttle Hours
                       Maintenance     (Scheduled          Shuttle       Maintenance        Used for        Maintenance         Used by
                       Technicians     Maintenance       Hours Used       Hours Used       Scheduled        Technician       Maintenance
 VMF Location           Assigned          only )         in FY 2007      for Shuttling    Maintenance        Positions        Technicians
 Albuquerque                     14           19,645         4,007.80                20             306             0.17        $13,170.24
 Austin                         16             22,451        1,656.50                 7              235              0.13          10,114.40
 Corpus Christi                 12             16,838        4,016.50               24             2,055              1.17          88,425.68
 El Paso                         9             12,629        2,060.00               16               784              0.44          33,743.36
 Houston                        77            108,046       21,128.00               20             8,012              4.56         344,836.48
 Little Rock                    16             22,451        2,707.30               12             1,142              0.65          49,164.59
 Oklahoma City                  23             32,274        5,298.10               16             2,066              1.17          88,907.73
 San Antonio                    28             39,290        3,823.10               10               507              0.28          21,812.67
 Tulsa                          15             21,048        3,632.10               17               921              0.52          39,626.93
 Waco                            7              9,822        1,382.00               14               826              0.47          35,533.82
                               217            304,494       49,711.40               16            16,854                10        $725,335.90
Source: VMAS and OIG Optimization Model

                        o Area Oversight. The Southwest Area’s program did not validate staffing
                          requirements or ensure a complete preventive maintenance program.19
                          This occurred because existing data were insufficient and sometimes
                          unreliable. If sufficient data existed, Southwest Area management would
                          have understood that 45 vacant staff positions requested by the 10 VMFs
                          were not necessary. If data were more reliable, then vehicles would
                          receive the requisite maintenance.20




                  17
                     The vehicle maintenance plan did not include an evaluation of the cost-effectiveness of using LCV instead
                  of VMF resources for shuttling vehicles between facilities.
                  18
                     This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not
                  relate to any actual reductions in this report.
                  19
                     Handbook PO 701, Fleet Management, requires a complete preventive maintenance program.
                  20
                     For example, for FYs 2006 and 2007, two VMFs in our sample completed less than 70 percent of their
                  required SPMs, although maintenance status reports did not show any vehicles requiring maintenance.


                                                                        15
Vehicle Maintenance Facilities – Scheduled Maintenance                                      DR-AR-08-006
 Service in the Southwest Area


In addition, the Postal Service’s organizational structure21 was not conducive to
effective management of vehicle maintenance. Area Vehicle Maintenance
Program Analysts (VMPA) are responsible for working directly with VMF officials
to manage the vehicle maintenance program. However, the VMPA is aligned
under the plant maintenance manager, who has no direct line of authority to
district vehicle maintenance functions or individual VMF operations.

A comprehensive vehicle maintenance plan addressing the optimum use of both
commercial and VMF resources will increase efficiency. Further, increased
efficiency, coupled with eliminating or reducing the use of VMF resources for
shuttling, will lower overall VMF operating costs by an average of $3.4 million
annually. These efficiencies, when projected for the 15 VMFs in the Southwest
Area over a 10-year period, can save $34,522,159. (See Appendix D.)




21
  This issue requires action by Postal Service Headquarters and will be addressed in a national capping
report.




                                                    16
Vehicle Maintenance Facilities – Scheduled Maintenance                                     DR-AR-08-006
 Service in the Southwest Area


                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $34,522,159 in funds put to better use over the next 10 years for the
Southwest Area’s 15 VMFs.

                                        Savings in Dollars
                            VMF Location          Annual                   Savings Over
                                                  Savings                    10 Years
                      Albuquerque 22                          $145,868         $1,458,683
                      Austin                                   $195,463        $1,954,633
                      Corpus Christi                           $123,496        $1,234,961
                      El Paso                                   $78,671          $786,714
                      Houston                                $1,023,039       $10,230,392
                      Little Rock                             $192,146         $1,921,456
                      Oklahoma City                           $150,000         $1,500,000
                      San Antonio                              $259,154        $2,591,541
                      Tulsa                                   $102,997         $1,029,974
                      Waco                                      $30,642          $306,419
                      Totals                                 $2,301,477       $23,014,773
                      Projected Savings Over 15 VMFs in                       $34,522,159
                      Southwest Area
                    Source: OIG Optimization Model

We calculated the savings based on the following methodology and assumptions.

     •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
         Each VPO has a number of Postal Service vehicles that require regular SPM.
         The number of SPMs that a vehicle requires is determined at the beginning of the
         year based on the demands that the assigned route places on the vehicle. All
         SPMs for a given year must be performed on each vehicle; however, the VMF
         may delegate some of this workload to commercial vendors that are near the
         VPOs. We refer to this contract labor as LCVs.

     •   The purpose of this audit was to determine the optimal use of the SPMs to be
         performed by the VMFs’ LCVs. We took into consideration the mechanic labor
         costs and all relevant shuttling costs. As with the SPMs, VMFs may contract out
         shuttling. The Postal Service has a national vehicle shuttle agreement; the OIG


22
  For the Albuquerque VMF, the OIG optimization model calculated savings in efficiency and shuttling of $74,316
and $110,030 respectively, for total savings of $184,346. The total savings was multiplied by a discount factor of
0.791275 for an annual estimated savings of $145,868 and a 10-year savings of $1,458,683 The same formula was
used for the nine other VMFs and projected to the 15 VMFs in the Southwest Area




                                                        17
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-006
 Service in the Southwest Area


         used that rate in the analysis. However, VMFs can use a less expensive local
         shuttle contractor if one can be identified.

     •   We developed the optimization model to find a least-cost solution based on
         performing all required SPMs. We used the VMFs’ FY 2007 operational data to
         establish a baseline, assuming that any SPMs not currently performed by VMFs
         are completed by LCVs.23 We restricted the scope of this audit to maintenance
         technicians’ time spent performing scheduled maintenance and shuttling
         activities. This analysis draws no conclusions regarding the time dedicated to
         other activities or how maintenance technicians used the remainder of their time.

     •   The Postal Service VMAS system does not track the number of SPMs
         accomplished for each vehicle. The OIG’s efficiency and optimization model
         estimated the number of SPMS completed by analyzing all work orders assigned
         to xxxx xx (scheduled maintenance), and with adjustments (i.e., new vehicles
         and commercial repairs) considered all work of at least 2.5 hours24 as an SPM.
         We explained the process and confirmed/adjusted the number of SPMs required
         and completed with VMF managers during the audit or the out brief process.

     •   We optimized the VMFs’ scheduled maintenance and shuttling time for each of
         the next 10 years, assuming that the Postal Service would reduce the labor
         contingent by 4.6 percent per year, the historical attrition rate.25 This optimization
         gives the least-cost solution and specifies how the SPMs at each VPO should be
         distributed between the VMFs and the LCVs. The model shows which shuttling
         jobs should be done by both the VMFs and by contractors. The model analyzes
         all costs and hours (for SPMs at VMFs, SPMs at LCVs, VMF shuttling, and
         contract shuttling). The model also compares the baseline solution to the 10-
         year solution and specifies the number of SPMs that are currently being
         performed by VMFs that should be done by LCVs, and the reverse.

     •   In these optimizations, we assumed that each VMF would operate at a standard
         efficiency. We used the average of the top three Southwest Area’s VMFs’
         average time per SPM as a standard for the time it takes to complete an SPM in
         that area. If a particular VMF performed better than this standard, we assumed
         that the VMF maintained its current efficiency.

23
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs and transmitted to the mainframe computer at San Mateo Information Technology and Accounting Service
Center. Because a VMF may not perform all its required SPMs, we assumed that LCVs would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning this SPM to the closest location
with a shortfall. We accomplished this in part by assuming that the baseline case kept the scheduled maintenance
hours and shuttling hours constant at current levels.
24
   We used 2.5 hours because of the Postal Service’s requirement for a “Type A and Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.
25
   The historical attrition rate for Southwest Area maintenance technicians was determined by averaging the past
6 years (2001 - 2007) of data obtained from the Enterprise Data Warehouse.




                                                       18
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-08-006
 Service in the Southwest Area



       •   From the baseline solution, we identified cost savings if the VMF was not
           efficiently using its shuttling time. We compared the VMF's total shuttling time to
           the aggregate time that should be needed to perform all of the VMF’s shuttling,
           assuming that two vehicles were transported on each trip. The cost of any
           excess time was time that could have been saved, although the actual amount of
           time that could be saved was likely to be higher because the VMFs probably did
           not perform all of their own shuttling.

       •   For our model, we made certain assumptions regarding the minimum and
           maximum levels of overtime. The minimum overtime is 2 hours per week for
           90 percent of the maintenance technicians. The maximum overtime is 8 hours
           per week for 90 percent of the technicians and an additional 8 hours per week for
           50 percent of the technicians. We assumed that the current level of overtime
           was 90 percent for the technicians – an additional 8 hours per week. The
           number of hours of straight time worked for each mechanic per year is 1,754.26
           At some locations, where additional SPMs were required or LCVs were not used
           to the extent possible, the VMF managers helped us identify additional LCVs that
           could perform the SPMs.

       •   Based on the above analyses, assumptions, and constraints, we estimated that
           the Southwest Area could increase overall VMF efficiency and reduce costs by
           using local commercial resources for shuttling and SPM requirements when
           appropriate. This increased efficiency, when projected over the Southwest
           Area’s universe of 15 VMFs, will reduce costs by approximately $3.4 million
           annually, or over $34 million over a 10-year period. These savings include an
           overall reduction of two vehicle maintenance technician positions through
           attrition.




26
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”




                                                        19
Vehicle Maintenance Facilities – Scheduled Maintenance                    DR-AR-08-006
 Service in the Southwest Area



                         APPENDIX E: SELECTED DISTRICTS AND
                           VEHICLE MAINTENANCE FACILITIES

                                  District                      VMF
                             Arkansas                    Little Rock

                             Oklahoma                    Oklahoma City
                                                         Tulsa

                             Houston                     Houston

                             Rio Grande                  San Antonio
                                                         Corpus Christi
                                                         Austin
                                                         El Paso
                                                         Waco

                             Albuquerque                 Albuquerque




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance                                                                       DR-AR-08-006
 Service in the Southwest Area

                                                                                                                                 27
                         APPENDIX F: SCHEDULED MAINTENANCE PROCESS

                                                                             Start



                                               VMF prepares annual vehicle
                                                 scheduled preventative                Vehicle breaks down at
                                                 maintenance plan for all            assigned vehicle post office
                                                    assigned vehicles.                         (VPO).




                                                                                                       Is vehicle due for
                                                                                                         maintenance?
                                                              VMF establishes date
                                                               for each assigned         Yes
                                                               vehicle to receive                              No
                                                                   scheduled
                                                                  preventative
                                                              maintenance (SPM).                      VPO obtains cost
                                                                                                      estimate for repair
                                                                                                      service from local
                                                                                                     commercial vendor.


        Does VMF have available resources?




                                No
                  Yes                                                                     Is work less than $250?



     VMF performs SPM.          Local vendor performs
                                        SPM.
                                                                                               No               Yes



                                                                         VPO gets approval to have
                                                                         work accomplished at local                 VPO obtains service from
                                         End                            commercial vendor or sends                  Local commercial vendor.
            End
                                                                         vehicle to VMF for repairs.




                                                                                           Vehicle is repaired and returned
                                                                                                      to service.




                                                                                                         End




27
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.




                                                                         21
              Vehicle Maintenance Facilities – Scheduled Maintenance                                        DR-AR-08-006
               Service in the Southwest Area


                                          APPENDIX G: OIG STAFFING ANALYSIS
                       Estimated VMF Staffing Requirements Based on “Rule of Thumb” Ratio

                       Current Operations – VMFs Perform All Maintenance                 Optimum VMF Operations – Local Vendor Included
                                                                                                     Net      Technicians
                     Currently                       Technicians                         Vendor-  Vehicles     Needed by
                     Assigned     Technicians         Required        Overage or         Serviced Serviced      “Rule of     Overage or
VMF Location         Vehicles      Assigned        (Average of 45)     Shortage          Vehicles by VMFs       Thumb”       Shortage28
Albuquerque               1,105              14                 25             -11            493          612             14             0
Austin                      883              16                 20              -4             10          873             19             -3
Corpus Christi              707              12                 16              -4            323          384              9             3
El Paso                     395                9                  9                 0          16          379              8             1
Houston                   4,307              77                 96             -19              0         4,307            96            -19
Little Rock                 743              16                 17              -1            507          236              5            10
Oklahoma City             1,311              23                 29              -6             57         1,254            28             -5
San Antonio               1,356              28                 30              -2             56         1,300            29             -1
Tulsa                       853              15                 19              -4            272          581             13             2
Waco                        351                7                  8             -1             10          341              8             -1
Total                   12,011               217               269             -50          1,744        10,267            228           -12
Source: VMF management, VMAS data, and OIG analysis.

                            Estimated VMF Staffing Requirements Based on Scheduled Preventive
                                        Maintenance Actions per Technician

                                                                                         Number of
                                              SPMs to be                                  Vehicle          Number of
                                              Performed           Net SPMs              Maintenance       Technicians
                             Number of         by Local          Required to            Technicians      Required - 110    Estimated
                             Required         Commercial        be Performed            Assigned to        SPMs per        Overage or
      VMF Location             SPMs             Vendor             by VMF                  VMFs           Technician        Shortage
    Albuquerque                   2,352               985                1,367                    14                 12              2
    Austin                           1,900                19                1,881                   16               17             -1
    Corpus Christi                   1,502               645                 857                    12                8             4
    El Paso                           918                 31                 887                     9                8             1
    Houston                          9,688                 0                9,688                   77               88            -11
    Little Rock                      2,270             1,013                1,257                   16               11             5
    Oklahoma City                    2,813               114                2,699                   23               25             -2
    San Antonio                      3,025               112                2,913                   28               26             2
    Tulsa                            1,684               544                1,140                   15               10             5
    Waco                              768                 20                 748                     7                7             0
    Total                  26,920          3,483                           23,437               217                 212             5
   Source: VMAS, VMF management, and OIG analysis.



              28
                Overages and shortages in these tables are designed to show the need for a standardized staffing matrix. The
              number of staff positions does not relate to the numbers based on increased efficiency.


                                                                      22
Vehicle Maintenance Facilities – Scheduled Maintenance                      DR-AR-08-006
 Service in the Southwest Area



    APPENDIX H: ACRONYMS/ABBREVIATIONS OF TERMS USED IN REPORT


        FY                              Fiscal Year

        LCV                             Local Commercial Vendors

        OIG                             Office of Inspector General

        PMI                             Preventive Maintenance Inspection

        SPM                             Scheduled Preventive Maintenance

        VMF                             Vehicle Maintenance Facility

        VMAS                            Vehicle Management Accounting System

        VMPA                            Vehicle Maintenance Program Analyst

        VPO                             Vehicle Post Office

        WebCOINS                        Web-based Complement Information System

        WebEIS                          Web-Enabled Enterprise Information System




                                                   23
Vehicle Maintenance Facilities – Scheduled Maintenance      DR-AR-08-006
 Service in the Southwest Area


                        APPENDIX I: MANAGEMENT’S COMMENTS




                                                   24
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-006
 Service in the Southwest Area




                                                   25
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-006
 Service in the Southwest Area




                                                   26
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-006
 Service in the Southwest Area




                                                   27
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-006
 Service in the Southwest Area


                                         ATTACHMENT J




                                                   28
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-006
 Service in the Southwest Area




                                                   29
